No.

IN THE
SUPREME COURT OF THE UNITED STATES

WARREN TISDALE

PETITIONER
VS.

fF.C.O.l CASA PARTNER

RESPONDENT^)

PROOF OF SERVICE

I,
WARREN TISDALE
, do swear or declare that on this date, 28 March. 2021, as
required by Supreme Court Rule 29,1 have served the enclosed Petition for Writ of Certiorari on
each party to the above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

/g. /TlpP^ fljO
20 000 0

all

/lUQUS____________

dMitfzttJAy- .

li/icj 200

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

57^

, 2021

